No. 19-___

Supreme Court of the United States
BOARD OF REGENTS, THE UNIVERSITY OF TEXAS SYSTEM
AND TISSUEGEN, INC.

Applicants,
v.
BOSTON SCIENTIFIC CORPORATION,

Respondent,
APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR
WRIT OF CERTIORARI

Directed To The Honorable John G. Roberts, Jr.
Chief Justice Of The United States And Circuit Justice For The United
States Court Of Appeals For The Federal Circuit
Michael W. Shore
Counsel of Record
Alfonso Garcia Chan
Samuel E. Joyner
Chijioke E. Offor
Jonathan R. Walther
SHORE CHAN DEPUMPO LLP
901 Main Street, Suite
3300 Dallas, Texas 75202
Telephone: 214-593-9110

I.

APPLICATION FOR AN EXTENSION OF TIME
Pursuant to 28 U.S.C. § 2101(c) and Rule 13.5 of the Rules of this Court,

applicants Board of Regents, The University of Texas System (“The Board”) and
TissueGen, Inc. (“TissueGen”) respectfully request a 30-day extension of time, to
and including March 6, 2020, within which to file a petition for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Federal Circuit
on the issue of the conflict between state sovereignty—not sovereign immunity—
and the patent venue statute in state plaintiff patent suits.
II.

JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is Board of Regents of the

University of Texas et al. v. Boston Scientific Corporation, No. 2018-1700
(September 5, 2019) attached hereto as Exhibit 1. The Federal Circuit denied
Applicants’ petition for en banc review on November 8, 2019 attached as Exhibit 2.
At issue is whether, in view of state sovereignty, a state plaintiff can be forced to
sue an in-state infringer in the infringer’s home state.
III.

RULE 29.6 STATEMENT
The University of Texas System (“UT System”) is a state entity created by

Article VII, Section 10 of the constitution of The State of Texas of 1876. UT System
is governed by The Board. The Board is a constitutional corporation.
TissueGen is a privately held corporation, and there is no publicly-held
corporation that owns ten percent or more of TissueGen’s stock.

1

IV.

JURISDICTION
This Court has jurisdiction over any timely filed petition for a writ of

certiorari in this case pursuant to 28 U.S.C. § 1254(1). Under Rules 13.1, 13.3, and
30.1 of the Rules of this Court, a petition for writ of certiorari is due to be filed on or
before February 6, 2020. In accordance with Rule 13.5, this application is being filed
more than 10 days in advance of the February 6, 2020 filing date.
V.

NATURE OF THE CASE
The Board (together with TissueGen) sued Boston Scientific Corporation

(“Boston Scientific”) on November 20, 2017. Boston Scientific moved to dismiss for
improper venue seeking dismissal or alternatively transfer of the case to its home
district, the District of Delaware, where respondent is incorporated. Relying on the
patent venue statute, 28 U.S.C. § 1400(b), the Western District of Texas granted the
motion and transferred the case to Delaware on March 12, 2018.
The Board immediately appealed the transfer to the Federal Circuit pursuant
to 28 U.S.C. §§ 1291 and 1295 and the collateral order doctrine, because, as an arm
of The State of Texas, The Board has the sovereign right to avoid the territorial
jurisdiction of courts within a defendant’s state. The Federal Circuit agreed that the
collateral order doctrine applied, but found no applicable sovereign right to exist in
this case and thus affirmed the district court’s transfer. The Board timely filed a
petition for en banc review on October 7, 2019 that the Federal Circuit denied on
November 8, 2019. See Ex. 2.

2

VI.

SPECIFIC REASON JUSTIFYING EXTENTION
Applicants respectfully request a 30-day extension of time within which to

file a petition for a writ of certiorari seeking review of the decision of the United
States Court of Appeals for the Federal Circuit in this case, up to and including
March 6, 2020. Applicant The Board is an arm of The State of Texas. Accordingly,
the petition for a writ of certiorari in this case must be reviewed thoroughly by The
Board and The State of Texas itself. The Board requests this extension to
accommodate the required review by such stakeholders.
VII.

PRAYER
For the forgoing reasons and good cause shown, Applicants respectfully pray

this Court grant this application for an extension of time to file a petition for writ of
certiorari.

3

DATED: January 21, 2020

Respectfully Submitted,

/s/ Michael W. Shore
Michael W. Shore*
mshore@shorechan.com
Alfonso Garcia Chan
achan@shorechan.com
Samuel E. Joyner
sjoyner@shorechan.com
Chijioke E. Offor
coffor@shorechan.com
Jonathan R. Walther
jwalther@shorechan.com
SHORE CHAN DEPUMPO LLP
901 Main Street, Suite 3300
Dallas, Texas 75202
Telephone: (214) 593-9110
Facsimile: (214) 593-9111
Attorneys for Applicants
*Counsel of Record

4

EXHIBIT 1

Case: 18-1700

Document: 49

Page: 1

Filed: 09/05/2019

United States Court of Appeals
for the Federal Circuit
______________________

BOARD OF REGENTS OF THE UNIVERSITY OF
TEXAS SYSTEM, TISSUEGEN, INC.,
Plaintiffs-Appellants
v.
BOSTON SCIENTIFIC CORPORATION,
Defendant-Appellee
______________________
2018-1700
______________________
Appeal from the United States District Court for the
Western District of Texas in No. 1:17-cv-01103-LY, Judge
Lee Yeakel.
______________________
Decided: September 5, 2019
______________________
MICHAEL W. SHORE, Shore Chan DePumpo LLP, Dallas, TX, argued for plaintiffs-appellants. Also represented
by ALFONSO CHAN, CHIJIOKE E. OFFOR; ANDREW M.
HOWARD, Howard & Spaniol, PLLC, Dallas, TX; RUSSELL
J. DEPALMA, Russell J. DePalma PLLC, Irving, TX.
JOHN NILSSON, Arnold & Porter Kaye Scholer LLP,
Washington, DC, argued for defendant-appellee. Also represented by MATTHEW WOLF, ANDREW TUTT.
______________________

Case: 18-1700

2

Document: 49

Page: 2

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

Before PROST, Chief Judge, REYNA and STOLL, Circuit
Judges.
STOLL, Circuit Judge.
The Board of Regents of the University of Texas System (UT) and TissueGen Inc. sued Boston Scientific Corporation (BSC) for patent infringement in the Western
District of Texas. The district court determined that venue
was improper and transferred the case to the District of
Delaware. UT, acting as an arm of the State of Texas, appeals the district court’s transfer order on several grounds
relating to its rights as a sovereign entity.
We hold that, as a threshold matter, we have jurisdiction to hear this appeal under the collateral order doctrine.
On the merits, we conclude that the state sovereignty principles asserted by UT do not grant it the right to bring suit
in an otherwise improper venue. We affirm.
BACKGROUND
The Board of Regents is the governing body for the University of Texas System, which includes eight universities
and six health institutions. The Board’s nine regents are
appointed by the Governor of Texas and confirmed by the
Texas Senate, and its authority to govern the University of
Texas System is delegated to it by the Texas Legislature.
It is undisputed that UT is an arm of the State of Texas.
UT is the assignee and exclusive owner of patents resulting from research conducted at the University of Texas
System. Its portfolio includes U.S. Patent Nos. 6,596,296
and 7,033,603 (the “patents-in-suit”), which are directed to
implantable
drug-releasing
biodegradable
fibers.
Dr. Kevin Nelson, co-inventor of the patents-in-suit, developed the claimed technology at the University of Texas at
Arlington and founded TissueGen Inc. as a vehicle for commercializing his inventions. UT exclusively licensed the
patents-in-suit to TissueGen, which then commercialized
its ELUTE® fiber product. According to UT, ELUTE® fiber

Case: 18-1700

Document: 49

Page: 3

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

3

is intended to replace standard fibers in medical devices
like implantable stents, and it is capable of delivering therapeutic agents directly to the site of implantation.
In November 2017, UT and TissueGen sued BSC for
patent infringement in the Western District of Texas. See
Compl., Bd. of Regents, the Univ. of Tex. Sys. v. Boston Sci.
Corp., No. 1:17-cv-1103 (W.D. Tex. Nov. 20, 2017), ECF
No. 1. UT alleged that several BSC stent products infringed the patents-in-suit. In its complaint, UT conceded
that BSC is a Delaware corporation with a principal place
of business in Massachusetts. It asserted that “[v]enue is
proper in the Western District of Texas because UT has
sovereign immunity and this Court has personal jurisdiction over [BSC].” Id. ¶ 7. Relying on state sovereignty as
its hook for venue, UT explained:
Venue is proper in the Western District of Texas
because UT is an arm of the State of Texas, has the
same sovereign immunity as the State of Texas, it
would offend the dignity of the State to require it
to pursue persons who have harmed the State outside the territory of Texas, and the State of Texas
cannot be compelled to respond to any counterclaims, whether compulsory or not, outside its territory due to the Eleventh Amendment.
Id. ¶ 10. UT further emphasized that it did not waive its
sovereign immunity and did not “consent[] to any suit or
proceeding filed separate from this action.” Id. ¶ 2.
BSC filed a motion to dismiss under Federal Rule of
Civil Procedure 12(b)(3) for improper venue. It requested
that the case be dismissed or, in the alternative, transferred to the District of Delaware. BSC noted that it does
not own or lease any property or maintain a business address in the Western District of Texas. BSC disclosed that
it has approximately forty-six employees in the Western
District of Texas, all of whom maintain home offices and do

Case: 18-1700

4

Document: 49

Page: 4

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

not work in spaces that are owned, leased, or controlled by
BSC.
The district court granted BSC’s motion and transferred the case to the District of Delaware. See Bd. of Regents, the Univ. of Tex. Sys. v. Boston Sci. Corp., No. 1:17cv-1103 (W.D. Tex. Mar. 12, 2018), ECF No. 27 (“Order”).
It explained that “28 U.S.C. § 1400(b)[] is the ‘sole and exclusive provision controlling venue in patent infringement
actions,’” and that venue is proper under this section where
a defendant resides or has a regular and established place
of business. Id. at 2 (quoting TC Heartland LLC v. Kraft
Foods Grp. Brands LLC, 137 S. Ct. 1514, 1519 (2017)). Applying this court’s decision in In re Cray Inc., 871 F.3d 1355
(Fed. Cir. 2017), the district court found that BSC “does not
maintain a ‘regular and established place of business’ in
the Western District of Texas.” Id. It rejected UT’s sovereign immunity arguments, explaining that “[s]overeign immunity is a shield; it is not meant to be used as a sword . . .
There is no claim or counterclaim against The Board of Regents that places it in the position of a defendant.” Id. at 3
(citing Regents of the Univ. of Cal. v. Eli Lilly & Co.,
119 F.3d 1559, 1565 (Fed. Cir. 1997)). The district court
held that venue was improper under § 1400(b), as there
was no dispute that BSC, a Delaware corporation, does not
reside in the district. Accordingly, it transferred the case
to the District of Delaware pursuant to 28 U.S.C. § 1406.
Id. at 3–4. UT appeals the district court’s transfer order.
DISCUSSION
I
We first address whether we have appellate jurisdiction over UT’s appeal. Transfer orders are interlocutory
and generally cannot be appealed immediately. We conclude, however, that we have jurisdiction here. Because
UT challenges the district court’s transfer order based on
state sovereignty, we hold that this case falls within the

Case: 18-1700

Document: 49

Page: 5

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

5

small class of orders excepted from the final judgment rule
by the collateral order doctrine.
Section 1295(a)(1) of Title 28 grants this court jurisdiction over any “appeal from a final decision of a district court
of the United States . . . in any civil action arising under
. . . any Act of Congress relating to patents.” Under the final judgment rule, a party may not appeal “until there has
been a decision by the district court that ends the litigation
on the merits and leaves nothing for the court to do but
execute the judgment.” Robert Bosch, LLC v. Pylon Mfg.
Corp., 719 F.3d 1305, 1308 (Fed. Cir. 2013) (en banc) (quoting Firestone Tire & Rubber Co. v. Risjord, 449 U.S. 368,
373 (1981)). “Appeal is thereby precluded ‘from any decision which is tentative, informal or incomplete,’ as well as
from any ‘fully consummated decisions, where they are but
steps towards final judgment in which they will merge.’”
Puerto Rico Aqueduct & Sewer Auth. v. Metcalf & Eddy,
Inc., 506 U.S. 139, 142 (1993) (quoting Cohen v. Beneficial
Indus. Loan Corp., 337 U.S. 541, 546 (1949)). A transfer
order is not a final judgment. It “is interlocutory and thus
not immediately appealable, but appealable only incident
to a final judgment in a case (or a partial judgment pursuant to Fed. R. Civ. P. 54(b)) or as a certified question pursuant to 28 U.S.C. § 1292(b).” FDIC v. Maco Bancorp, Inc.,
125 F.3d 1446, 1447 (Fed. Cir. 1997).
The collateral order doctrine provides a “narrow exception” to the final judgment rule. Amgen Inc. v. Hospira,
Inc., 866 F.3d 1355, 1358–59 (Fed. Cir. 2017). An order
that is not final will be immediately appealable under this
doctrine if it “fall[s] in that small class which finally determine[s] claims of right separable from, and collateral to,
rights asserted in the action, too important to be denied review and too independent of the cause itself to require that
appellate consideration be deferred until the whole case is
adjudicated.” Puerto Rico, 506 U.S. at 143 (quoting Cohen,
337 U.S. at 546). “To come within the ‘small class’ of
. . . [collateral order doctrine decisions], the order must

Case: 18-1700

6

Document: 49

Page: 6

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

[1] conclusively determine the disputed question, [2] resolve an important issue completely separate from the merits of the action, and [3] be effectively unreviewable on
appeal from a final judgment.” Id. at 144–45 (quoting
Coopers & Lybrand v. Livesay, 437 U.S. 463, 468 (1978));
see also Cohen, 337 U.S. at 546.
The Supreme Court has held that States and State entities may invoke the collateral order doctrine to immediately appeal an order denying a claim of sovereign
immunity. In Puerto Rico, the Puerto Rico Aqueduct and
Sewer Authority (PRASA)—an arm of the Puerto Rican
government—sought to upgrade Puerto Rico’s waste treatment plants and contracted with Metcalf & Eddy Inc. to
assist with the task. 506 U.S. at 141. PRASA withheld
payments on the contract due to alleged overcharging by
Metcalf, and Metcalf sued PRASA in the District of Puerto
Rico for breach of contract in response. Id. PRASA then
moved to dismiss the case on grounds that sovereign immunity under the Eleventh Amendment prohibited the
suit. Id. The district court denied the motion, PRASA appealed, and the First Circuit dismissed the appeal for lack
of jurisdiction. Id. at 141–42. The First Circuit explained
that its precedent barred States from taking an immediate
appeal on a claim of sovereign immunity. Id. at 142.
The Supreme Court reversed. It determined that decisions denying claims of sovereign immunity by a State or
its arms fall within the “small class” of decisions covered
by the collateral order doctrine. Id. at 144–45. The Court
explained that such decisions satisfy the three elements of
the doctrine as set forth in Cohen and Coopers & Lybrand.
Id. It emphasized that the Eleventh Amendment confers
on States the privilege not to be sued, and that decisions
denying sovereign immunity “purport to be conclusive determinations that [States] have no right not to be sued in
federal court.” Id. at 145. The Court noted that resolving
the issue of sovereign immunity “generally will have no
bearing on the merits of the underlying action,” and that

Case: 18-1700

Document: 49

Page: 7

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

7

the value of sovereign immunity to a State “is for the most
part lost once litigation proceeds past motion practice.” Id.
Accordingly, the Court held that “States and state entities
that claim to be ‘arms of the State’ may take advantage of
the collateral order doctrine to appeal a district court order
denying a claim of Eleventh Amendment immunity.” Id.
at 147; see also Univ. of Minn. v. LSI Corp., 926 F.3d 1327,
1331 n.2 (Fed. Cir. 2019) (“It is well-established that decisions denying sovereign immunity are appealable as collateral orders, and the ‘ultimate justification is the
importance of ensuring that the States’ dignitary interests
can be fully vindicated.’” (quoting Puerto Rico, 506 U.S.
at 146–47)).
Here, UT challenges the district court’s transfer order
on several grounds. It argues that the U.S. Constitution’s
Original Jurisdiction Clause ensures that a State cannot
be forced to sue in a court located in another State. See
Appellant’s Br. 11–17. UT also argues that the Eleventh
Amendment confirms that a State is entitled to control
where it litigates against a private party. See id. at 18–21.
Finally, it asserts that it did not consent to jurisdiction or
waive its sovereignty rights in Delaware, and that the patent venue statute does not abrogate those rights. See id.
at 26–36. UT generally invokes its rights as a state sovereign to challenge the district court’s transfer order—an order denying the application of the Eleventh Amendment.
See Order at 3. We thus hold that, based on the Supreme
Court’s reasoning and analysis in Puerto Rico, the collateral order doctrine likewise applies here.
As in Puerto Rico, the district court’s order satisfies all
three elements of the collateral order doctrine. See
506 U.S. at 144–45. The first element is met because the
order “conclusively determine[d]” that State sovereignty
principles do not apply. Id. at 144. There is nothing “tentative, informal or incomplete” about the transfer order regarding this issue. Cohen, 337 U.S. at 546. As soon as the
case proceeds in Delaware, UT is subject to suit there, and

Case: 18-1700

8

Document: 49

Page: 8

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

the issue of whether state sovereignty principles apply is
conclusively determined in the negative. Contrary to
BSC’s argument, UT cannot simply “raise its sovereignty
arguments in a ‘different room,’” because UT’s asserted
right to not litigate in Delaware is immediately lost upon
transfer. Appellee’s Br. 9 (quoting Carefirst of Md., Inc. v.
Carefirst Urgent Care Ctr., LLC, 305 F.3d 253, 255 (4th Cir.
2002)).
During oral argument, BSC conceded that, had UT unsuccessfully moved in the District of Delaware to retransfer
the case back to Texas, then the issue would be conclusively
determined and the collateral order doctrine would apply.
Oral Arg. at 23:08, http://oralarguments.cafc.uscourts.gov/
default.aspx?fl=2018-1700.mp3. That UT could have filed
a motion to retransfer in Delaware does not alter our determination that the first element is satisfied. The Texas
court already concluded that (1) venue is improper in the
Western District of Texas; and (2) venue is proper in the
District of Delaware. As the Supreme Court has explained,
these conclusions are law of the case:
Federal courts routinely apply law-of-the-case
principles to transfer decisions of coordinate courts
. . . Indeed, the policies supporting the doctrine apply with even greater force to transfer decisions
than to decisions of substantive law; transferee
courts that feel entirely free to revisit transfer decisions of a coordinate court threaten to send litigants into a vicious circle of litigation.
Christianson v. Colt Indus. Operating Corp., 486 U.S. 800,
816 (1988). “A court has the power to revisit prior decisions
of its own or of a coordinate court in any circumstance, although as a rule courts should be loathe to do so in the absence of extraordinary circumstances such as where the
initial decision was ‘clearly erroneous and would work a
manifest injustice.’” Id. at 817 (quoting Arizona v. California, 460 U.S. 605, 618 n.8 (1984)). Thus, the District of

Case: 18-1700

Document: 49

Page: 9

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

9

Delaware can revisit the Texas court’s venue determination only under extraordinary circumstances, such as
reaching a conclusion that the Texas court’s decision was
“clearly erroneous and would work a manifest injustice.”
Id. (quoting Arizona, 460 U.S. at 618 n.8). In the absence
of such a conclusion, however, the law-of-the-case doctrine
applies and the issue of whether UT is subject to jurisdiction in Delaware is conclusively determined. We note that,
in opposing appealability, BSC does not waive the law-ofthe-case protection it has against the Delaware court drawing a different conclusion than the one it urged the Texas
court to make. BSC does not argue that the Texas court’s
decision is implausible or clearly erroneous. Nor could it.
After all, BSC’s position is that, far from being clearly erroneous, the Texas court’s decision is actually correct. We
agree that the Texas court’s ruling is not clearly erroneous
or implausible and, as such, we are satisfied that the Texas
court’s transfer decision is conclusive for purposes of the
collateral order doctrine.
The second element is also met because the state sovereignty issues raised here are “important issue[s],” the
resolution of which are “completely separate from the merits” of the patent infringement suit. Puerto Rico, 506 U.S.
at 144. In Puerto Rico, the Supreme Court explained that
Eleventh Amendment immunity is “a fundamental constitutional protection” and that “its ultimate justification is
the importance of ensuring that the States’ dignitary interests can be fully vindicated.” Id. at 145–46. The Court
noted that the purpose of the Eleventh Amendment is to
“prevent the indignity of subjecting a State to the coercive
process of judicial tribunals at the instance of private parties,” and that the Amendment “is rooted in a recognition
that the States, although a union, maintain certain attributes of sovereignty, including sovereign immunity.” Id.
at 146. The state sovereignty principles claimed here are
similar to the claims of Eleventh Amendment immunity in
Puerto Rico because, in both instances, the claim invokes

Case: 18-1700

10

Document: 49

Page: 10

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

sovereignty to protect a State’s dignitary interest in not litigating under conditions to which it did not agree. We thus
determine that resolving whether those principles apply
here is also an “important issue.” Id. at 144. And because
resolution of this issue is “completely separate from the
merits of” a patent infringement suit, the second element
of the collateral order doctrine is satisfied. See id. Our
determination here turns on UT’s assertion of state sovereignty, and we recognize that transfer orders normally
would not satisfy this element. See Appellee’s Br. 10–11.
Finally, the third element of the collateral order doctrine is satisfied because the district court’s order, which
determined that Eleventh Amendment principles do not
apply, is “effectively unreviewable on appeal from a final
judgment.” See Puerto Rico, 506 U.S. at 144–45. On appeal, UT asserts its rights as a sovereign entity to choose
its forum and not litigate its case in Delaware. If the case
proceeds to final judgment, an appeal of UT’s claims of
state sovereignty would be effectively pointless as UT
would have been litigating in Delaware the entire time.
Like the scenario in Puerto Rico, the value of UT’s asserted
rights “is for the most part lost as litigation proceeds past
motion practice.” Id. at 145; see also Firestone, 449 U.S.
at 376–77 (explaining that the challenged order must constitute a final rejection “of a claimed right where denial of
immediate review would render impossible any review
whatsoever” (quoting United States v. Ryan, 402 U.S. 530,
533 (1971))).
We acknowledge that Puerto Rico differs because there
the State entity stood as a defendant whereas here, UT
stands as a plaintiff. The Supreme Court’s decision in
Puerto Rico turned on its recognition that the Eleventh
Amendment confers on a State or state entity the right to
not defend a suit, and that this important right is lost if the
State’s claim to sovereign immunity is denied. See
506 U.S. at 144–45. Here, in contrast, UT relies not on sovereign immunity under the Eleventh Amendment so much

Case: 18-1700

Document: 49

Page: 11

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

Filed: 09/05/2019

11

as on related principles that it labels as state sovereignty.
We nonetheless conclude that Puerto Rico’s teachings apply here. As we explained above, UT’s assertion of state
sovereignty principles is similar to a claim of Eleventh
Amendment immunity because both arguments invoke attributes of state sovereignty to preclude a suit from going
forward. Even if we were to ultimately conclude that plaintiffs cannot assert state sovereignty to defeat a venue
transfer, that determination goes to the merits of the state
sovereignty issue in this case and cannot be the basis for
denying jurisdiction.
Given the similarities between this case and Puerto
Rico, we conclude that we have jurisdiction because the district court’s transfer order fits within the small class of
judgments excepted from the final judgment rule by the
collateral order doctrine.
II
Turning to the merits, UT seeks reversal of the district
court’s transfer order on several grounds relating to state
sovereignty. It argues that venue is proper in the Western
District of Texas because a State, as a sovereign entity, has
the right to sue a nonresident in its forum of choice as long
as personal jurisdiction is satisfied. According to UT, the
federal patent venue statute cannot abrogate a State’s
right to choose the forum when asserting infringement of
its federal patent rights. UT also argues that the District
of Delaware lacks jurisdiction because UT never consented
to suit in Delaware, never waived its sovereignty in Delaware, and never had its sovereignty abrogated by statute.
We disagree with UT on all grounds. We hold that the state
sovereignty principles asserted by UT do not grant it the
right to bring a patent infringement suit in an improper
venue. Accordingly, the district court did not err in transferring the case to the District of Delaware.

Case: 18-1700

12

Document: 49

Page: 12

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

A. Standard of Review
The patent venue statute, 28 U.S.C. § 1400(b), “is the
sole and exclusive provision controlling venue in patent infringement actions.” TC Heartland, 137 S.Ct. at 1519
(quoting Fourco Glass Co. v. Transmirra Prod. Corp.,
353 U.S. 222, 229 (1957)). Venue is proper under § 1400(b)
only where a defendant resides or “has a regular and established place of business.” 28 U.S.C. § 1400(b). “We review de novo the question of proper venue under 28 U.S.C.
§ 1400(b).” Westech Aerosol Corp. v. 3M Co., 927 F.3d 1378,
1381 (Fed. Cir. 2019).
We apply Federal Circuit law to the questions of state
sovereignty raised here, just as we have applied our own
law to questions of sovereign immunity. See Delano Farms
Co. v. Cali. Table Grape Comm’n, 655 F.3d 1337, 1343
(Fed. Cir. 2011) (“In addressing the issue of sovereign immunity, we apply our own law in light of the special importance of ensuring national uniformity on such
questions.”); see also Univ. of Utah v. Max-Planck-Gesellschaft Zur Forderung Der Wissenschaften E.V., 734 F.3d
1315, 1320 (Fed. Cir. 2013) (“We have held that the question of Eleventh Amendment waiver is a matter of Federal
Circuit law.”). We review these questions de novo. See
Univ. of Utah, 734 F.3d at 1320 (“We review the district
court’s decision on Eleventh Amendment immunity de
novo.” (quoting A123 Sys., Inc. v. Hydro-Quebec, 626 F.3d
1213, 1219 (Fed. Cir. 2010))).
B. Venue in the Western District of Texas
The district court determined that BSC neither resides
in nor has a regular and established place of business in
the Western District of Texas under § 1400(b). Order at 2–
3. UT does not appeal these determinations. It challenges
the transfer order only on the basis of state sovereignty.
There is no dispute that UT is an arm of the State of Texas
and is entitled to the same sovereign rights as Texas. See
Tegic Commc’ns Corp. v. Bd. of Regents of Univ. of Tex.

Case: 18-1700

Document: 49

Page: 13

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

13

Sys., 458 F.3d 1335, 1340 (Fed. Cir. 2006) (“The University
of Texas System is deemed to be an arm of the State of
Texas, see Tex. Gov’t Code § 441.101(3), . . . .”).
UT argues that a State has the right to sue a private
party in any forum as long as personal jurisdiction requirements are met. See Appellant’s Br. 11–20. UT asserts that
this right “is an essential privilege of state sovereignty,”
and is established by several authorities including “the language and history of the Original Jurisdiction Clause and
Eleventh Amendment,” and Supreme Court precedents.
Id. at 19. We disagree with UT. First of all, State sovereign immunity does not apply where a State acts solely as
a plaintiff, as UT does here. We also discern nothing in the
U.S. Constitution’s Original Jurisdiction Clause or in UT’s
other asserted authorities that supports the proposition
that a State has the right to bypass federal venue rules
when it engages in patent litigation as a plaintiff. We thus
conclude that UT does not have the right to bring a patent
infringement suit against BSC in the Western District of
Texas, an improper venue. We address UT’s sovereign immunity, original jurisdiction, and state sovereignty arguments in detail below.
1. State Sovereign Immunity
We first address the doctrine of state sovereign immunity, “sometimes referred to” as “Eleventh Amendment
immunity.” See Alden v. Maine, 527 U.S. 706, 713 (1999).
The Eleventh Amendment immunizes the States from
suits “commenced or prosecuted against one of the United
States by Citizens of another State, or by Citizens or Subjects of any Foreign State.” U.S. CONST. amend. XI. In its
opening appellate brief, UT asserted that the Eleventh
Amendment allows a State “to control where it litigates
against a private party.” Appellant’s Br. 18 (capitalization
altered). According to UT, state sovereign immunity provides that “only the state can dictate where it litigates its

Case: 18-1700

14

Document: 49

Page: 14

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

property rights; a private party cannot dictate the forum.” 1
Id.
We have previously held, however, that “the Eleventh
Amendment applies to suits ‘against’ a state, not suits by a
state.” Eli Lilly, 119 F.3d at 1564. In Eli Lilly, the Regents
of the University of California (UC)—an arm of the State
of California—sued Eli Lilly & Co. for patent infringement
in the Northern District of California. Id. at 1562. The Judicial Panel on Multidistrict Litigation consolidated the
case with five other related cases for pre-trial proceedings
in the Southern District of Indiana. Id. at 1563. UC then
filed a petition for a writ of mandamus to this court, seeking to vacate the transfer order as barred by the Eleventh
Amendment. Id. We denied UC’s petition, holding that
“the transfer did not force unconsented suit upon UC and
thus was permissible for purposes of pretrial discovery.”
Id. Lilly subsequently filed a motion to have the case transferred under 28 U.S.C. § 1404(a) to the Southern District
of Indiana for trial. Id. The District Court for the Southern
District of Indiana granted the motion, transferred the case
to itself, and a trial proceeded on the merits. Id. The district court ruled in favor of Lilly on infringement and validity, and UC appealed to this court. Id. at 1564.
UC argued on appeal that Eleventh Amendment immunity deprived the Southern District of Indiana of jurisdiction. Specifically, UC asserted that by choosing to bring
While UT expressly relied on sovereign immunity
in district court and in its opening appellate brief, it appears to have shifted course during the appeal. Indeed, in
its reply, UT asserted that “this case is not about Eleventh
Amendment immunity.” Reply Br. 5 (capitalization altered). Likewise, during oral argument, UT’s counsel
stated that “[t]his is not an Eleventh Amendment case.”
Oral Arg. at 6:57. We nonetheless address this argument
since it was presented to the district court and raised here.
1

Case: 18-1700

Document: 49

Page: 15

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

15

suit in the Northern District of California, it waived its
Eleventh Amendment immunity only in California federal
courts. Id. We explained that Eleventh Amendment immunity applies only in situations where a State is a defendant. See id. at 1564–65. We determined that UC’s reliance
on Port Authority Trans-Hudson Corp. v. Feeney, 495 U.S.
299 (1990), was misplaced because the Court in that case
“did not construe the Eleventh Amendment to apply to
suits in which a state is solely a plaintiff,” and noted that
“we do not believe that the Court has ever so construed the
Eleventh Amendment.” Eli Lilly, 119 F.3d at 1564. Because UC was acting solely as the plaintiff, we explained
that “we need not determine whether UC waived its immunity only in California, because this case does not create
an Eleventh Amendment jurisdictional issue concerning
which the question of waiver even arises.” Id. at 1564–65.
Recognizing that there were no claims or counterclaims
that placed UC in the position of a defendant, we concluded
that “the Eleventh Amendment does not deprive the Indiana district court of jurisdiction in this case.” Id. at 1565.
Our interpretation of the Eleventh Amendment in Eli
Lilly was guided by the Supreme Court’s reasoning in
United States v. Peters, 9 U.S. (5 Cranch) 115 (1809) (Marshall, C.J.), a case where the Court declined to apply the
Eleventh Amendment in a suit instituted against the heirs
of a deceased State treasurer. See Eli Lilly, 119 F.3d
at 1564. The Court in Peters instructed:
The right of a state to assert, as plaintiff, any interest it may have in a subject, which forms the
matter of controversy between individuals, in one
of the courts of the United States, is not affected by
[the Eleventh] amendment; nor can it be so construed as to oust the court of its jurisdiction, should
such claim be suggested. The amendment simply
provides, that no suit shall be commenced or prosecuted against a state. The state cannot be made a
defendant to a suit brought by an individual; but it

Case: 18-1700

16

Document: 49

Page: 16

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

remains the duty of the courts of the United States
to decide all cases brought before them by citizens
of one state against citizens of a different state,
where a state is not necessarily a defendant.
Peters, 9 U.S. at 139 (emphases added). This is consistent
with other guidance from the Supreme Court. “[W]here a
state voluntarily become[s] a party to a cause, and submits
its rights for judicial determination, it will be bound
thereby, and cannot escape the result of its own voluntary
act by invoking the prohibitions of the 11th Amendment.”
Gunter v. Atl. Coast Line R.R. Co., 200 U.S. 273, 284 (1906).
Moreover,
[i]t would seem anomalous or inconsistent for a
State both (1) to invoke federal jurisdiction,
thereby contending that the “Judicial power of the
United States” extends to the case at hand, and (2)
to claim Eleventh Amendment immunity, thereby
denying that the “Judicial power of the United
States” extends to the case at hand.
Lapides v. Bd. of Regents of Univ. Sys. of Ga., 535 U.S. 613,
619 (2002).
Our decision in Eli Lilly controls here. Similar to UC
in Eli Lilly, UT here invokes sovereign immunity to challenge the transfer to the District of Delaware. See Appellant’s Br. 18–20. Because UT is acting solely as a plaintiff,
however, sovereign immunity does not apply, and UT cannot rely on it to challenge the transfer. See Eli Lilly,
119 F.3d at 1564–65. We thus hold that sovereign immunity cannot be asserted to challenge a venue transfer in a
patent infringement case where a State acts solely as a
plaintiff.
UT nonetheless argues that “State sovereign immunity—a complementary attribute of state sovereignty—confirms that only the state can dictate where it litigates its
property rights.” Appellant’s Br. 18. For support, it quotes

Case: 18-1700

Document: 49

Page: 17

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

17

Ex parte Ayers, 123 U.S. 443, 505 (1887), for the proposition
that “[t]he very object and purpose of the eleventh amendment [serves] to prevent the indignity of subjecting a state
to the coercive process of judicial tribunals at the instance
of private parties.” Appellant’s Br. 18–19. UT also quotes
Pennhurst State School & Hospital v. Halderman, 465 U.S.
89, 99 (1984), for the proposition that a “State’s constitutional interest in immunity encompasses not merely
whether it may be sued, but where it may be sued.” Appellant’s Br. 19. Finally, UT relies on Feeney, where the Supreme Court “reiterated that a state may control the venue
in which it litigates, holding that ‘issues of venue are
closely related to those concerning sovereign immunity.’”
Appellant’s Br. 19 (quoting Feeney, 495 U.S. at 307). While
UT accurately quotes these cases, we disagree with UT’s
reliance on them. Ayers, Pennhurst, and Feeney are all distinguishable as none involved the assertion of sovereign
immunity by a State as a plaintiff. We are aware of no
cases in which the Supreme Court has applied the Eleventh Amendment to suits in which a State is solely a plaintiff. Our reading of Ayers, Pennhurst, and Feeney here is
consistent with Eli Lilly, where we previously distinguished Feeney, emphasizing that “the Court did not construe the Eleventh Amendment to apply to suits in which
a state is solely a plaintiff.” Eli Lilly, 119 F.3d at 1564.
2. The Original Jurisdiction Clause
UT next argues that “the Original Jurisdiction Clause
ensures a State cannot be forced to sue in a court located
in another State.” 2 Appellant’s Br. 11 (capitalization

We note that UT did not present its original jurisdiction argument to the district court. We exercise our discretion and reach UT’s argument rather than finding that
UT waived this issue by failing to present it below. See e.g.,
In re DBC, 545 F.3d 1373, 1378–79 (Fed. Cir. 2008) (noting
2

Case: 18-1700

18

Document: 49

Page: 18

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

altered). The U.S. Constitution grants the Supreme Court
original jurisdiction over cases “in which a State shall be a
Party.” U.S. CONST. art. III, § 2, cl. 2. This grant is codified
at 28 U.S.C. § 1251(b)(3), which provides: “The Supreme
Court shall have original but not exclusive jurisdiction of
. . . All actions or proceedings by a State against the citizens of another State or against aliens.” UT argues that
certain Supreme Court decisions on original jurisdiction—
namely Ames v. Kansas, 111 U.S. 449 (1884), Georgia v.
Pennsylvania Railroad Co., 324 U.S. 439 (1945), and Ohio
v. Wyandotte Chemicals Corp., 401 U.S. 493 (1971)—establish that a State has the “right to control the forum with
requisite jurisdiction in which it sues a citizen of another
state.” Appellant’s Br. 12–17. In so arguing, UT asserts
not only that (a) it has a Constitution-rooted right to avoid
out-of-state venues, but also that (b) it has an affirmative
right to sue in a federal district court that Congress has
deemed unavailable. We disagree with UT’s generous
reading of these cases and address each case in turn below.
UT cites Ames for its statements that States “were left
free to seek redress for their own grievances in any court
that had requisite jurisdiction” and “no limits were set on
their powers of choice in this particular.” See id. at 13 (emphasis omitted) (citing Ames, 111 U.S. at 465). But these
statements must be read in context. In Ames, the State of
Kansas filed suit in its own courts to challenge a corporate
consolidation by a national railway company. See Ames,
111 U.S. at 452–53. The defendants removed to federal
court on grounds that the case presented a federal question, and Kansas challenged the removal. Id. at 465. Kansas argued that the federal district court lacked
jurisdiction due to the Original Jurisdiction Clause, which
gives the Supreme Court “original Jurisdiction” in “all

“discretion to reach issues raised for the first time on appeal”).

Case: 18-1700

Document: 49

Page: 19

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

Filed: 09/05/2019

19

Cases . . . in which a State shall be Party.” U.S. CONST.
art. III, § 2, cl. 2. The Supreme Court disagreed and held
that where a State brings suit against private parties, the
original jurisdiction of the Supreme Court is not exclusive,
and those suits “may now be brought in or removed to” the
lower federal courts. Ames, 111 U.S. at 470. Ames thus
stands for the proposition that lower federal courts can exercise jurisdiction over suits filed by a State against a nonState.
In so holding, the Supreme Court explained that one of
the practical effects of original jurisdiction was “to allow
the state to sue for itself in any tribunal that could entertain its case.” Id. at 465. The Court here refers to the ability of States to sue in lower courts in addition to the
Supreme Court. These passages do not, as UT asserts, support the proposition that States may sue in any forum regardless of venue rules.
Georgia also does not support UT’s argument. In Georgia, the State of Georgia filed a bill of complaint in the Supreme Court, alleging that several railway companies had
committed antitrust violations. 324 U.S. at 443. The defendants argued that the Supreme Court should decline to
exercise original jurisdiction over the case because the action could have “conveniently proceed[ed] in the district
court of the proper venue.” Id. at 465. The Court exercised
original jurisdiction anyway, noting that “it is apparent
[from the complaint] that Georgia could not find all of the
defendants in one of the judicial districts of Georgia so as
to maintain a suit of this character against all of them in a
district court in Georgia.” Id. at 466. While the Court did
allow Georgia to proceed in its chosen forum—the Supreme
Court—this case also does not support the proposition that
a State has a right to proceed in any forum regardless of
venue rules.
In Wyandotte, the State of Ohio attempted to invoke
original jurisdiction in a suit against a Michigan chemical

Case: 18-1700

20

Document: 49

Page: 20

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

company. 401 U.S. at 494. The Supreme Court declined
jurisdiction, noting that the issues raised were “bottomed
on local law,” that multiple regulatory bodies were already
involved, and that the case presented technical and factual
questions in which the Court had no expertise. Id. at 497,
502, 505. UT argues that Wyandotte supports a State’s
right to litigate in its forum of choice regardless of federal
venue rules because the Court broadly stated that “no
State should be compelled to resort to the tribunals of other
States for redress.” Appellant’s Br. 17 (quoting Wyandotte,
401 U.S. at 500). But, again, the Court’s statement must
be read in the context of the dispute litigated. In Wyandotte, the Court was merely discussing the principles underlying original jurisdiction and did not even consider
whether original jurisdiction confers on States the right to
bring suit in an improper venue. See 401 U.S. at 500.
The original jurisdiction cases cited by UT do not support the proposition that a State can bring suit in any forum as long as personal jurisdiction requirements are met.
These cases are further inapposite because UT never even
sought to invoke original jurisdiction. It brought this suit
“pursuant to 28 U.S.C. §§ 1331 and 1338(a).” Compl. ¶ 5.
Whether UT could have instituted this suit as an original
proceeding in the Supreme Court is irrelevant because UT
brought suit in a federal district court under federal question jurisdiction.
3. State Sovereignty
Finally, UT asserts that it has the right to sue for patent infringement in its forum of choice based on the inherent powers of a state sovereign. For example, it argues that
each State has “residual and inviolable sovereignty,” and
retained the right “as a sovereign, to choose the forum with
requisite jurisdiction in which to enforce its property rights
against citizens of another state.” Appellant’s Br. 10–11.
It further asserts that

Case: 18-1700

Document: 49

Page: 21

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

21

States, although a union, maintain attributes of
sovereignty, including the (1) right to consent to or
reject jurisdiction (the right to choose where it litigates its rights against a citizen); (2) immunity,
e.g., under the Eleventh Amendment or state tort
claim acts;[] (3) eminent domain power; (4) power
to try causes in its own courts; (5) power to tax; and
(6) police power, among other attributes of sovereignty.
Reply Br. 5.
We acknowledge that States are sovereign entities that
entered the Union with particular sovereign rights intact.
See Appellant’s Br. 9–11; see also Reply Br. 5–6. We are
not convinced, however, that the inherent powers of Texas
as a sovereign allow UT to disregard the rules governing
venue in patent infringement suits once it chose to file such
a suit in federal court.
When a State voluntarily appears in federal court, as
UT has done here, it “voluntarily invoke[s] the federal
court’s jurisdiction.” Lapides, 535 U.S. at 620. It logically
follows that the State must then abide by federal rules and
procedures—including venue rules—like any other plaintiff. We see nothing in UT’s cited authorities that suggests
otherwise. Indeed, it would be “anomalous or inconsistent”
for UT to both invoke federal question jurisdiction and then
to assert sovereignty to defeat federal jurisdiction. See id.
at 619.
Our conclusion here is consistent with sovereign immunity decisions in the removal context from the Supreme
Court and from our sister circuits. See, e.g., id. at 620 (noting that the State of Georgia “voluntarily invoked the federal court’s jurisdiction” by voluntarily agreeing to remove
the case to federal court); In re Methyl Tertiary Butyl Ether
(“MTBE”) Prod. Liab. Litig., 488 F.3d 112, 119 (2d Cir.
2007) (“The removal of the cases here was the result of the
voluntary acts of California and New Hampshire in

Case: 18-1700

22

Document: 49

Page: 22

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

commencing the lawsuits against the defendants. Once
having done so, these states subjected themselves to all of
the rules and consequences attendant to that decision.”); In
re Creative Goldsmiths of Washington, D.C., Inc., 119 F.3d
1140, 1148 (4th Cir. 1997) (“When a state authorizes its officials voluntarily to invoke federal process in a federal forum, the state thereby consents to the federal forum’s rules
of procedure and may not invoke sovereign immunity to
protect itself against the interposition of defenses to its action.”).
When a State sues in federal court, it waives sovereign
immunity with respect to its asserted claims, subjecting itself to the jurisdiction of the federal courts, and must accept the federal statutory provisions that govern the
allocation of cases among the courts. The Supreme Court
has explained that Congress’s power to establish lower federal courts under Article III is not restricted. “The discretion, therefore, of Congress as to the number, the
character, the territorial limits of the courts among which
it shall distribute this judicial power, is unrestricted except
as to the Supreme Court.” United States v. Union Pac. R.R.
Co., 98 U.S. 569, 602 (1878).
Congress thus has the power to establish as many—or
as few—federal district courts as it wishes, and to authorize nationwide assertion of jurisdiction by those courts.
See, e.g., Robertson v. R.R. Labor Bd., 268 U.S. 619, 622
(1925) (“Congress clearly has the power to authorize a suit
under a federal law to be brought in any inferior federal
court. Congress has power, likewise, to provide that the
process of every District Court shall run into every part of
the United States.”); Union Pac., 98 U.S. at 604 (“There is,
therefore, nothing in the Constitution which forbids Congress to enact that, as to a class of cases or a case of special
character, a circuit court—any circuit court—in which the
suit may be brought, shall, by process served anywhere in
the United States, have the power to bring before it all the
parties necessary to its decision.”); Henry M. Hart, Jr., The

Case: 18-1700

Document: 49

Page: 23

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

23

Power of Congress to Limit the Jurisdiction of Federal
Courts: An Exercise in Dialectic, 66 Harv. L. Rev. 1362,
1365 (1953) (“Q. [] [D]oes the Constitution give people any
right to proceed or be proceeded against in one inferior federal constitutional court rather than another? A. As to civil
plaintiffs, no. Congress has plenary power to distribute jurisdiction among such inferior federal constitutional courts
as it chooses to establish.”). 3 It follows that Congress has
the power to allocate cases, including patent cases, among
the federal district courts and UT, having waived its sovereign immunity, cannot escape Congress’s statutory provisions governing patent cases.
C. Jurisdiction in the District of Delaware
Finally, UT argues that the District of Delaware lacks
jurisdiction over this case because it did not consent to suit
in Delaware, did not waive its sovereignty in Delaware,
See also Toland v. Sprague, 37 U.S. 300, 328 (1838)
(“Congress might have authorized civil process from any
circuit court, to have run into any state of the Union.”);
Martin v. Hunter’s Lessee, 14 U.S. 304, 331 (1816) (“[Congress] might establish one or more inferior courts; they
might parcel out the jurisdiction among such courts, from
time to time, at their own pleasure.”); Robert Haskell
Abrams, Power, Convenience, and the Elimination of Personal Jurisdiction in the Federal Courts, 58 Ind. L.J. 1, 1
(1983) (“Had Congress in the exercise of its article III powers to establish ‘inferior courts’[] chosen to establish only
one such tribunal, there would be little doubt of the constitutional permissibility of such a choice.”); Jonathan Remy
Nash, National Personal Jurisdiction, 68 Emory L.J. 509,
524 (2019) (commenting that, if the Supreme Court’s explanation in Union Pacific is true, “then Congress could establish federal trial courts whose jurisdictional reach extends
across state lines; indeed, it could even set up a single federal trial court with national jurisdiction.”).
3

Case: 18-1700

24

Document: 49

Page: 24

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

and never had its sovereignty abrogated by statute. See
Appellant’s Br. 26–32. Citing College Savings Bank v.
Florida Prepaid Postsecondary Education Expense Board,
527 U.S. 666 (1999), UT asserts that waiver of sovereignty
must be unequivocal and voluntary. See Appellant’s
Br. 26–29. In that case, College Savings Bank sued the
State of Florida under the Lanham Act, alleging that Florida misrepresented its tuition prepayment program. See
College Savings, 527 U.S. at 671. College Savings Bank argued that Florida waived its sovereign immunity by engaging in interstate marketing of its program. See id. The
Supreme Court disagreed and held that Florida’s sovereign
immunity was not “voluntarily waived by the State’s activities in interstate commerce.” Id. at 691.
UT’s reliance on College Savings is misplaced. As we
explained above, sovereign immunity does not apply when
a State proceeds as a plaintiff. Moreover, none of the authorities cited by UT support a broader privilege of state
sovereignty that gives a State the right to bring suit in an
improper venue. The issues of waiver and abrogation of
such rights thus do not arise, because there is no sovereign
immunity or relevant state sovereign right to waive or abrogate. See Eli Lilly, 119 F.3d at 1564–65.
UT also argues that waiver of its sovereign immunity
is “forum and claim specific,” and that it did not waive sovereignty in Delaware by filing suit in Texas. Appellant’s
Br. 29–30 (capitalization altered). We rejected the same
argument in Eli Lilly, because sovereign immunity does
not apply to “suits by a state.” 119 F.3d at 1564. The cases
UT cites as support are inapposite. UT cites to Tegic and
Hydro-Quebec, to argue that “waiver of state sovereignty is
limited to the state’s chosen forum.” Appellant’s Br. 29. In
both Tegic and Hydro-Quebec, we held that a state plaintiff
that files a patent infringement suit in one case, does not
waive its sovereign immunity in an entirely different case.
See Tegic, 458 F.3d at 1343 (“Although here the University
obviously ‘made itself a party to the litigation to the full

Case: 18-1700

Document: 49

Page: 25

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

Filed: 09/05/2019

25

extent required for its complete determination, . . . it did
not thereby voluntarily submit itself to a new action
brought by a different party in a different state and a different district court.” (quoting Clark v. Barnard, 108 U.S.
436, 448 (1883))); see also Hydro-Quebec, 626 F.3d at 1220
(“UT’s waiver of Eleventh Amendment immunity in a patent infringement suit in the Northern District of Texas did
not result in a waiver of immunity in this separate infringement action.”). There is no second infringement suit here,
so these cases do not apply.
Additionally, UT states that “to rule against the State
of Texas, you would have to find that a venue provision is
[a] substantive jurisdictional right to defendants to only be
sued where they reside as opposed to where there is jurisdiction over them.” Oral Arg. at 36:52. UT argues that this
would be contrary to Brunette Machine Works, Ltd. v.
Kockum Industries, Inc., 406 U.S. 706 (1972). Oral Arg.
at 37:10. In Brunette, Kockum Industries, Inc. sued Brunette Machine Works—a Canadian corporation—for patent infringement in the District of Oregon, which
dismissed the suit for improper venue under § 1400(b). Id.
at 707. The Supreme Court ruled that, even though venue
was improper under § 1400(b), that provision does not apply to suits against an alien defendant given the existence
of 28 U.S.C. § 1391(d), a venue statute applicable to foreign
entities. Id. at 713–14. The Court explained that “venue
provisions are designed, not to keep suits out of the federal
courts, but merely to allocate suits to the most appropriate
or convenient federal forum.” Id. at 710. The Court held
that § 1391(d) controlled and that Brunette, an alien defendant, “cannot rely on § 1400” as a shield against suit in
Oregon. Id. at 714. We do not find UT’s reliance on Brunette persuasive because, unlike in Brunette, there is no authority asserted here that overrides the patent venue
statute.
Because sovereign immunity does not apply to a State
acting solely as a plaintiff, the issues of waiver and

Case: 18-1700

26

Document: 49

Page: 26

Filed: 09/05/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORP.

abrogation do not arise here. Accordingly, jurisdiction in
the District of Delaware is proper.
CONCLUSION
We have considered UT’s remaining arguments and
find them unpersuasive. UT’s sovereign rights do not allow
it to escape application of the patent venue statute in this
case. We affirm the district court’s transfer order.
AFFIRMED

EXHIBIT 2

Case: 18-1700

Document: 53

Page: 1

Filed: 11/08/2019

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

BOARD OF REGENTS OF THE UNIVERSITY OF
TEXAS SYSTEM, TISSUEGEN, INC.,
Plaintiffs-Appellants
v.
BOSTON SCIENTIFIC CORPORATION,
Defendant-Appellee
______________________
2018-1700
______________________
Appeal from the United States District Court for the
Western District of Texas in No. 1:17-cv-01103-LY, Judge
Lee Yeakel.
______________________
ON PETITION FOR REHEARING EN BANC
______________________
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Board of Regents of the University of Texas
System filed a petition for rehearing en banc. The petition

Case: 18-1700

2

Document: 53

Page: 2

Filed: 11/08/2019

BOARD OF REGENTS v. BOSTON SCIENTIFIC CORPORATION

was first referred as a petition for rehearing to the panel
that heard the appeal, and thereafter the petition for rehearing en banc was referred to the circuit judges who are
in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November 15,
2019.
FOR THE COURT
November 8, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

